TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                An Improved Project Management Process Is
                 Needed to Measure the Impact of Research
                       Efforts on Tax Administration



                                           July 21, 2009

                              Reference Number: 2009-10-095




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                            July 21, 2009


 MEMORANDUM FOR DIRECTOR, OFFICE OF RESEARCH, ANALYSIS, AND
                STATISTICS

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – An Improved Project Management Process Is
                             Needed to Measure the Impact of Research Efforts on Tax
                             Administration (Audit # 200810001)

 This report presents the results of our review of the Internal Revenue Service’s (IRS) process to
 monitor the progress of projects, validate results, and measure the impact of its research efforts.
 The overall objective of this review was to determine whether the structure and management of
 IRS research efforts can be improved when providing information to IRS executive management.
 This review was part of the Treasury Inspector General for Tax Administration Fiscal Year 2008
 Annual Audit Plan coverage under the major management challenge of Using Performance and
 Financial Information for Program and Budget Decisions.

 Impact on the Taxpayer
 IRS management relies on research programs to deliver information that is integral to improving
 performance on strategic goals and objectives. However, IRS research management has not
 developed and implemented effective business measures and project management processes to
 provide pertinent data about whether IRS research efforts achieved established program
 objectives. This is especially significant because the IRS spent more than $93.2 million on
 research in Fiscal Year 2008, but cannot effectively assess the impact its research efforts had on
 tax administration.

 Synopsis
 The IRS does not have a systemic process to measure research outcomes against intended results.
 Specifically, the IRS should develop additional business measures to effectively assess the
                         An Improved Project Management Process Is Needed to
                      Measure the Impact of Research Efforts on Tax Administration



impact of its research projects on tax administration. Currently, the IRS primarily assesses the
impact of its research projects by measuring customer satisfaction. However, customer
satisfaction is not the most relevant and effective business measure since it does not directly
show whether IRS research projects contributed to the research programs’ mission of providing
information that supports data-driven decisions by IRS management. As a result,
IRS management cannot fully assess the impact of the research projects, and the associated
$93.2 million spent, on tax administration.
In addition, IRS management should improve project management practices to ensure project
files contain adequate information related to the planning, conducting, and reporting of research
efforts. The IRS research files in our judgmental sample did not always contain adequate
information to determine the scope of the planned work and why research projects were
terminated or to assess the efficiency and effectiveness of the research projects. In addition, key
information should be captured on an information system to track and monitor research efforts.
This will enable IRS management to more effectively monitor whether research is completed
within established time/budget standards and assess its impact on improving taxpayer service,
enhancing enforcement of the tax laws, and modernizing the IRS.
Effective business measures and improved project management practices will provide
IRS management with pertinent data to enable them to determine whether their research efforts
achieved established objectives, ensure IRS resources are focused on the issues that are most
relevant to its programs’ missions, and assure stakeholders that the annual investment in research
efforts provides value to tax administration.

Recommendations
We recommended the Director, Office of Research, Analysis, and Statistics (RAS):
1) coordinate with the Directors in each IRS research program to develop and implement
business measures to better assess whether IRS research efforts achieve program objectives and
to show their impact on improving tax administration; 2) establish research standards and
practices that define what activities constitute a research project and specify the minimum
required documentation that should be prepared and maintained for all research projects; and
3) develop guidance to ensure basic project information1 is captured, tracked, and monitored to
allow for the consistent and comparable reporting of IRS research efforts.

Response
IRS management agreed in principle with our recommendations, but offered alternative
corrective actions for all three recommendations. With respect to our recommendation regarding

1
    See Appendix VI for a glossary of terms.
                                                                                                   2
                   An Improved Project Management Process Is Needed to
                Measure the Impact of Research Efforts on Tax Administration



business measures, IRS management responded that the Servicewide Research Council will
discuss and consider developing appropriate business measures. As part of this consideration,
the Servicewide Research Council will explore whether standardized measures are desirable.
Some IRS research units are in the process of developing measures that address workload
capacity, productivity, and delivery cost objectives. As for our recommendations pertaining to
project management practices (defining activities constituting a research project, specifying
project documentation requirements, developing guidance to capture, track, and monitor research
projects), IRS management stated that the Servicewide Research Council will look for
opportunities to develop consistent definitions of research projects and establish an appropriate
set of documentation standards and practices. Additionally, some of the IRS’ research program
tracking systems are being redesigned to capture project documentation, time, and resource
expenditures and to monitor research projects. Management’s complete response to the draft
report is included as Appendix VII.

Office of Audit Comment
The IRS’ planned corrective actions do not adequately address our recommendations. While we
recognize the value in having the Servicewide Research Council discuss the establishment of
business measures, we are concerned that IRS management has not made a commitment to
establishing business measures. The IRS 2009-2013 Strategic Plan shows an expanded use of
research efforts to strengthen the IRS’ decision-making processes by placing special emphasis on
high performance investments to improve taxpayer services and enforcement activities.
Strategies to accomplish this objective include developing research-driven methods and tools to
detect and combat noncompliance and improve resource allocation and to maintain an ongoing
research program to determine evolving taxpayer and partner service needs, preferences, and
behaviors. However, the current business measures, and the measures under development, do
not effectively show the impact of IRS research projects and activities on improving tax
administration. If the IRS had the ability to measure the impact of various research projects on
key mission priorities, the IRS would be better able to ensure its resources were used on the
highest priority projects.
In addition, we are concerned that the responsibility for implementing these corrective actions
has been given to the Servicewide Research Council when this Council serves as a forum for
exchanging ideas and coordinating crosscutting activities, not as a standards-making body. The
Internal Revenue Manual states the Office of RAS is responsible for providing functional
leadership, guidance, and support to the IRS Research Community on research standards and
practices to ensure consistency and comparability of performance between the various research
programs. In this environment of increased government accountability and transparency, the
development of effective business measures is critical for IRS management to assess the impact
of their research projects (and the associated Fiscal Year 2008 $93.2 million research
investment) on tax administration.
                                                                                                  3
                  An Improved Project Management Process Is Needed to
               Measure the Impact of Research Efforts on Tax Administration



Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
Organizations), at (202) 622-8500.




                                                                                           4
                        An Improved Project Management Process Is Needed to
                      Measure the Impact of Research Efforts on Tax Administration




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 4
          The Internal Revenue Service Needs Additional Business Measures
          to Assess the Impact of Its Research on Tax Administration .......................Page 4
                    Recommendation 1:........................................................Page 6

          Project Management Practices for Research Efforts
          Can Be Improved ..........................................................................................Page 7
                    Recommendation 2:........................................................Page 9

                    Recommendation 3:........................................................Page 10


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 12
          Appendix II – Major Contributors to This Report ........................................Page 14
          Appendix III – Report Distribution List .......................................................Page 15
          Appendix IV – Outcome Measure ................................................................Page 16
          Appendix V – Description of the Office of Research,
          Analysis, and Statistics Sub-Offices .............................................................Page 17
          Appendix VI – Glossary of Terms................................................................Page 18
          Appendix VII – Management’s Response to the Draft Report.....................Page 20
        An Improved Project Management Process Is Needed to
      Measure the Impact of Research Efforts on Tax Administration




                      Abbreviations

IRS            Internal Revenue Service
RAS            Research, Analysis, and Statistics
                      An Improved Project Management Process Is Needed to
                    Measure the Impact of Research Efforts on Tax Administration




                                             Background

Collection and analysis of tax administration data are
essential to the planning, management, and evaluation of        IRS management relies on
Internal Revenue Service (IRS) programs.                      research  programs to deliver
                                                                 information integral to its
IRS management relies on research programs to deliver         decision-making processes to
information that is integral to its decision-making               improve performance on
processes to improve performance on strategic goals and      strategic goals and objectives.
objectives (e.g., are the IRS business divisions helping
taxpayers understand and comply with applicable tax
laws?). The IRS Research Community consists of a decentralized management structure that
includes the Office of Research, Analysis, and Statistics (RAS) and research programs in each of
the four IRS business divisions.1 Each business division maintains control of its research
program, while the Office of RAS is managed centrally in Washington, D.C.
The decentralized IRS research structure resulted from the IRS’ October 2000 reorganization
into four business divisions. As a result of the reorganization, a separate research program was
embedded in each division in an attempt to create research operations focused on specific
taxpayer groups. Also, the reorganization was intended to address concerns over whether
research was addressing areas with the most impact on tax administration previously raised by
the Treasury Inspector General for Tax Administration and the Government Accountability
Office.
The Office of RAS is comprised of a Director’s office along with five sub-offices.2 The Office
of RAS is responsible for providing functional leadership and guidance to the IRS Research
Community by supporting the research standards and practices to ensure consistency,
comparability, and quality throughout the community. In addition, the Office of RAS serves a
wide variety of both internal and external customers, including providing the IRS Commissioner
with a source for short-term and long-term research and analytical work, the American public
with data on the Federal tax system,3 and IRS employees with a suite of corporate research tools
and services.



1
  The research programs are in the Large and Mid-Size Business, Small Business/Self-Employed, Tax Exempt and
Government Entities, and Wage and Investment Divisions. The Taxpayer Advocate Service and the Criminal
Investigation Division also have research programs, but due to their sizes were not included in the review.
2
  A detailed description of each sub-office in the Office of RAS is included in Appendix V.
3
  The Statistics of Income office, in the Office of RAS, collects, analyzes, and disseminates information on Federal
taxation for the Department of the Treasury, Congressional Committees, the IRS, other organizations engaged in
economic and financial analysis, and the general public.
                                                                                                             Page 1
                        An Improved Project Management Process Is Needed to
                      Measure the Impact of Research Efforts on Tax Administration



Research programs in the IRS business divisions are responsible for performing reviews and
providing IRS management with information to develop and improve their programs and
processes, solve problems, and make data-driven decisions. One challenge under the
reorganized IRS research structure is that the Office of RAS does not have line authority over the
research programs in the IRS business divisions. Each business division controls the budget and
resources needed for its respective program. Figure 1 shows the resources assigned to research
efforts4 in each research program.
      Figure 1: IRS Employees Assigned to Research Efforts As of December 2007

       Operating Division/Function                                                        Employees
       Office of RAS, Office of Research                                                     70
       Office of RAS, Office of Program Evaluation and Risk Assessment                       44
       Large and Mid-Size Business Division                                                  76
       Small Business/Self Employed Division                                                107
       Tax Exempt and Government Entities Division                                            3
       Wage and Investment Division                                                          62
       Totals                                                                               362
      Source: Office of RAS December 2007 Business Performance Report and IRS business divisions’ web sites.

Because the IRS Research Community consists of a complex set of networks, the Servicewide
Research Council was created as a forum for sharing information, coordinating
cross-functional actions, and resolving procedural issues that affect research and analysis across
the IRS. Decisions regarding the use of common assets across the IRS Research Community are
reached through the Servicewide Research Council. Permanent Council members include the
Director, Office of RAS (as chair of the Council), Directors of Research from the five Office of
RAS sub-offices, and Directors from each of the four IRS business divisions.
This review was performed at the IRS Office of RAS in Washington, D.C., and the IRS research
programs at the Large and Mid-Size Business Division in Oakland, California; the Small
Business/Self-Employed Division in New Carrollton, Maryland; the Tax Exempt and
Government Entities Division in Washington, D.C.; and the Wage and Investment
Division in Atlanta, Georgia, during the period of August 2008 through January 2009. We
conducted this performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe the evidence obtained provides a reasonable basis for our findings


4
    See Appendix VI for a glossary of terms.
                                                                                                         Page 2
                  An Improved Project Management Process Is Needed to
                Measure the Impact of Research Efforts on Tax Administration



and conclusions based on our audit objective. Detailed information on our audit objective,
scope, and methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




                                                                                          Page 3
                     An Improved Project Management Process Is Needed to
                   Measure the Impact of Research Efforts on Tax Administration




                                      Results of Review

In Fiscal Year 2008, the IRS spent approximately $93.2 million on research efforts. However,
we determined there is no standardized process to monitor the progress of projects, validate
results, and measure the impact of research efforts. As a result, IRS management cannot fully
assess the impact that research has in improving taxpayer service, enhancing the enforcement of
tax laws, and assisting in the modernization of the IRS. These types of information are important
when assigning and prioritizing research community resources. While we recognize the value
research efforts can have for IRS management, we determined the IRS needs additional business
measures to effectively assess the impact its research has in improving IRS programs and
processes. In addition, IRS management should improve its project management practices
related to planning, conducting, and reporting of research efforts to more effectively monitor and
assess related work.
Effective business measures and improved project management practices will provide
IRS management with pertinent data to enable them to determine whether their research efforts
achieved established objectives, ensure IRS resources are focused on the issues that are most
relevant to its programs’ missions, and assure stakeholders that the annual investment in research
efforts provides value to tax administration.

The Internal Revenue Service Needs Additional Business Measures to
Assess the Impact of Its Research on Tax Administration
The IRS does not have a systemic process to measure research outcomes against intended results.
Currently, IRS research management primarily assesses the impact of their research projects by
measuring customer satisfaction (i.e., percentage of customers who feel the product or service
met their needs or the number of new and repeat customers). However, customer satisfaction is
not the most relevant and effective business measure since it does not directly show
IRS management whether research projects are contributing to the research programs’ mission of
providing information that supports data-driven decisions by IRS management. Without
effective business measures, IRS management cannot effectively assess the impact of their
research projects (and the associated Fiscal Year 2008 $93.2 million research investment) on tax
administration.
The Government Performance and Results Act of 19935 requires Federal agencies to become
results-oriented. This shifted the focus of Federal agencies from simply accountability for the


5
 Pub. L. No. 103-62, 107 Stat. 285 (codified as amended in scattered sections of 5 U.S.C., 31 U.S.C., and
39 U.S.C.).
                                                                                                            Page 4
                    An Improved Project Management Process Is Needed to
                  Measure the Impact of Research Efforts on Tax Administration



process, (i.e., does the program spend the correct amount of money in a proper manner?) to
accountability for results, (i.e., what does the program actually accomplish with the money
spent?). In addition, The President’s Management Agenda relating to improving budget and
performance integration requires Federal Government agencies to identify high-quality outcomes
business measures and accurately monitor program performance. Finally, business measures that
assess the impact of research on tax administration would support the Department of the
Treasury’s objective of effective IRS investments in high return-on-investment activities that
generate improved compliance and fairness in the application of tax laws.
In prior reports,6 we recommended IRS management develop a process to better measure actual
research outcomes to enable management to monitor the effect that research programs have on
improving tax administration. In addition, in 2001 the Government Accountability Office
identified the need for additional business measures to determine the effectiveness of the
IRS’ research results.7 Given the difficulty across the Federal Government in measuring the
long-term effects of research programs, especially in quantifiable terms, the IRS has not been
able to develop business measures to assess the impact of its research. However, in 1999 the
Committee on Science, Engineering, and Public Policy addressed the challenges Federal
agencies were having in developing meaningful ways to measure the effectiveness of research
programs. They concluded that despite the difficulties Federal research programs were having in
measuring performance, research “can be evaluated meaningfully on a regular basis” in
accordance with the Government Performance and Results Act of 1993. For research programs
like those of the IRS, it was recommended they should measure the relevance of the program’s
research to the agency’s mission. The Committee further stated that the “Government
Performance and Results Act of 1993 is not an executive branch initiative but rather a
Congressional mandate.” As such, the IRS needs to develop effective business measures that
provide a direct link of program results to its mission of improving tax administration.
Without effective business measures, the ability of IRS management and Congress to make
informed business decisions related to IRS research programs is hampered. Business measures
that assess the progress of research toward the programs’ missions will allow the IRS to
determine whether its research efforts achieved program objectives, accurately quantified
problems, evaluated alternatives, and allocated resources so they are focused on subjects most
relevant to its program. This will also help stakeholders to assess the value IRS research
programs provide in exchange for their $93.2 million Fiscal Year 2008 investment in research.

6
  The Internal Revenue Service Needs to Improve Control of Its Compliance Research Program (Reference
Number 2000-40-068, dated May 12, 2000); Information Is Needed to Determine the Effect the Wage and
Investment Division Research Program Has on Improving Customer Service and Voluntary Compliance (Reference
Number 2004-40-088, dated April 14, 2004); and Important Progress Has Been Made in Using Research to
Improve Programs for Large Businesses, but Challenges Remain (Reference Number 2004-30-130, dated
August 12, 2004).
7
  Internal Revenue Service – Status of the Modernized Research Operations (Reference Number GAO-01-656R,
dated April 2001).
                                                                                                   Page 5
                  An Improved Project Management Process Is Needed to
                Measure the Impact of Research Efforts on Tax Administration



Recommendation
Recommendation 1: The Director, Office of RAS, should coordinate with the Directors in
each IRS research program to develop and implement effective business measures to better
assess whether IRS research efforts achieve program objectives and show their impact on
improving tax administration.
       Management’s Response: IRS management agreed in principle with this
       recommendation. The Servicewide Research Council, chaired by the Director, Office of
       RAS, will discuss this issue and consider developing appropriate business measures. As
       part of this consideration, the Servicewide Research Council will explore whether
       standardized measures are desirable. Some of the research units are already in the
       process of developing a series of measures that address workload capacity, productivity,
       and delivery cost objectives. As these are developed, the Servicewide Research Council
       will be the forum for discussing whether these approaches should be more widely
       adopted.
       Office of Audit Comment: While we recognize the value in having the Servicewide
       Research Council discuss the establishment of business measures, we are concerned that
       IRS management has not made a commitment to establishing business measures. The
       development of appropriate business measures is a Congressional requirement mandated
       by the Government Performance and Results Act of 1993 and has been determined to be
       possible within the Federal research programs. While the business measures currently
       being considered by some of the research units will be good measures for monitoring
       overall project/program performance, they will not provide IRS management with
       information to measure the progress of IRS research programs towards improving tax
       administration. The latter type of measure will be important in enabling the IRS to
       achieve its strategic goals. Specifically, the IRS 2009-2013 Strategic Plan shows an
       expanded use of research efforts to strengthen the IRS’ decision-making processes by
       placing special emphasis on high-performance investments to improve taxpayer services
       and enforcement activities. Strategies to accomplish this objective include, “developing
       improved research-driven methods and tools to detect and combat noncompliance and
       improve resource allocation and maintaining an ongoing research program to determine
       evolving taxpayer and partner service needs, preferences, and behaviors.” If the IRS had
       the ability to measure the impact of various research projects on key mission priorities,
       the IRS would be better able to ensure its resources were used on the highest priority
       projects. Furthermore, in this environment of increased government accountability and
       transparency, we believe it is critical for IRS management to be able to report the benefits
       and impact of its research resources ($93.2 million spent in Fiscal Year 2008) beyond just
       internal IRS customer satisfaction.



                                                                                            Page 6
                   An Improved Project Management Process Is Needed to
                 Measure the Impact of Research Efforts on Tax Administration




Project Management Practices for Research Efforts Can Be Improved
IRS management should improve project management practices to ensure project files contain
adequate information related to the planning, conducting, and reporting of research efforts. In
addition, key information should be captured on an information system to track and monitor
research efforts. This will enable IRS management to more effectively monitor whether research
is completed within established time/budget standards and assess its impact on improving
taxpayer service, enhancing enforcement of the tax laws, and modernizing the IRS.

Project documentation must be enhanced to ensure key information is
consistently maintained to evaluate the results of IRS research
The IRS Research Community has not established consistent procedures to ensure research
project files contain the necessary documentation to support key decisions made during the
planning and conducting of research projects, as well as the reporting of research results. Our
review of 30 judgmentally selected IRS research projects showed that many documents needed
to show the final results of the research, and management’s actions taken to deliver the research
project were not maintained in the research project files. As a result, we could not always
determine the scope of work planned or why research projects were terminated, or assess the
efficiency and effectiveness of the sampled research projects.
We obtained lists showing the research projects conducted by each program during
Fiscal Year 2008 and judgmentally sampled 30 projects. After we reviewed case information for
the 30 selected projects, we determined there are differences in the types of work performed by
the various IRS research programs to define what “is a research project.” Specifically, 16
(53 percent) of the 30 IRS research projects were “research activities” and not “research
projects.” All 16 activities were either closed in a short time period (e.g., 3 projects collectively
required 4 days to complete) or required few resources to complete. Examples of the types of
Fiscal Year 2008 activities include providing assistance to other IRS programs or using the
projects as an administrative tool to capture time. Because these projects required little time or
resources to complete, they did not require formal planning, monitoring, or tracking. In addition,
the application of business measures to these types of activities is not practical.
We determined the remaining 14 sampled cases were more extensive “research projects,” and
generally contained more detailed case information. Project file documentation generally
identified the customers and the requestors of the research and showed the technical details of
the research project. However, documentation was lacking to indicate why a research project
was closed, whether a report was issued, and the results of any post-research assessment. In
addition, none of the 14 research project files showed the project management details such as the
use of milestone dates or the final results and impact of the research on tax administration.
Because IRS research project files do not contain complete documentation, IRS research
program management cannot effectively analyze the reasons for terminating projects, identify

                                                                                              Page 7
                   An Improved Project Management Process Is Needed to
                 Measure the Impact of Research Efforts on Tax Administration



problems in project management, and determine whether program resources are addressing the
most relevant issues.
Among the well-established best practices in the research community is that research should
have the capability of being reproduced by both internal and external stakeholders to
independently confirm the validity of research results. Office of Management and Budget
guidelines, for example, indicate that having the capability of replicating research can enhance
the credibility of results, increase opportunities for improvement, and avoid perception of bias.
Documentation should be maintained in the project files to support the validation of the results of
research, as well as the events that transpire over the course of completing a research project that
is critical to ensure management has the information needed to make business decisions.
As a result of the IRS’ October 2000 reorganization, the decentralized IRS research programs
were allowed to develop their own procedures and best practices. In addition, the Office of RAS
did not provide functional leadership and guidance to the IRS research programs to clarify what
constitutes a research project, identify the project file requirements to show what documentation
must be maintained, and require research programs to develop a process for evaluating results.
Established guidelines will enhance the credibility of project file information by providing
greater assurance that information needed to manage and assess IRS research programs is
consistently captured, tracked, monitored, and reported.

Database information is not useful to track and monitor IRS research efforts
We determined the IRS research project databases do not contain information needed by research
program management to effectively ensure projects remain on track, on time, and within budget.
Similar to the lack of documentation of IRS research project files, useful and timely information
was not captured in the research project databases. Specifically, some IRS research programs do
not maintain a database of research projects or may maintain a database of projects but do not
use information on the system to monitor the progress of its research. For example, our review
of the data in the project databases that are maintained identified that basic project information is
not always captured and the requirements to capture, track, and monitor basic project
information varies between the research programs. Information not always captured in the
project databases included project numbers, objectives of the research, customers and requestors
of the research, as well as start, milestone, and completion dates. As a result, IRS research
management did not have complete information to fully and accurately assess the impact of its
research on tax administration and determine whether its resources are focused on the issues
most relevant to its program mission.
In addition, because the definition of what constitutes a research project varied between research
programs, information captured in the research programs’ databases makes it difficult to ensure
consistency and comparability when assessing productivity. For example, research database
information for the Tax Exempt and Government Entities Division shows its research program
completed or worked on 218 research projects in Fiscal Year 2008 costing $1.1 million. In

                                                                                              Page 8
                     An Improved Project Management Process Is Needed to
                   Measure the Impact of Research Efforts on Tax Administration



comparison, the Wage and Investment Division research program’s database for the same period
shows it completed or worked on 163 research projects costing $10.9 million. We recognize
various factors can cause differences in productivity between research programs. These factors
can include the different complexities of one program’s research projects or performing more
long-term projects that can require several years to complete. However, inconsistency in how
each research program defines what constitutes a “research project” makes it difficult to
accurately assess and compare performance across the IRS.
As outlined in the Standards for Internal Control in the Federal Government,8 managers need
access to reliable and timely operational data to meet their responsibility of ensuring the effective
use of resources. Tracking such information directly relates to the effective stewardship of
resources by helping to answer questions such as, “How long are the different steps in the
research process taking?” and “Are the time periods that have been set for the process being
met?” These techniques are designed to develop plans and control systems to ensure research is
completed on time and within budget so needed information is available for executive
decision-making purposes. This information could also assist the Servicewide Research Council
when sharing information across the IRS Research Community and identifying potential best
practices in research activities.
The variations of information in the IRS research project databases occurred because each
IRS research program was allowed to develop its own database standards and best practices with
no central oversight to ensure that basic research information is properly captured and monitored.
While we recognize that variations between the research project databases must exist due to the
different customers each research program serves and other informational needs that are unique
to each research program, basic research information that is common to all research programs
must be captured and entered into the IRS research project databases. An improved project
management process will provide standardized guidance that specifically defines what activities
should be classified as a research project, what information is required to be maintained in the
project file to support key decisions and the results of research, and what basic research
information must be captured in research databases to enable management to measure their
progress in achieving their strategic goals and objectives.

Recommendations
The Director, Office of RAS, should:
Recommendation 2: Establish research standards and practices that define what activities
constitute a research project and specify the required documentation that should be prepared and
maintained for all research projects. The standards and practices should include, at a minimum,
who requested the research, objectives of the research, estimated resources and time periods


8
    GAO/AIMD-00-21.3.1, dated November 1999.
                                                                                              Page 9
                  An Improved Project Management Process Is Needed to
                Measure the Impact of Research Efforts on Tax Administration



necessary to complete the project, the final report documenting the results of the research and
any potential actions taken by management as a result of the project, and the results of any
post-research assessment.
       Management’s Response: IRS management agreed in principle with this
       recommendation. The Servicewide Research Council, chaired by the Director, Office of
       RAS, will look for opportunities to develop consistent definitions of research projects and
       activities and to establish an appropriate set of documentation. Results of ongoing work
       will be shared with the entire Servicewide Research Council.
       Office of Audit Comment: We are concerned that the responsibility for implementing
       this recommendation has been given to the Servicewide Research Council when this
       Council serves as a forum for exchanging ideas and coordinating crosscutting activities,
       not as a standards-making body. The Internal Revenue Manual states the Office of RAS
       is responsible for providing “functional leadership, guidance, and support to the IRS
       Research Community on research standards and practices to ensure consistency and
       comparability” of performance between research programs. The standards, practices, and
       guidance referred to in this recommendation will provide IRS management with research
       information that is common to all projects, including non-research projects, for
       comparable and consistent reporting and evaluation of performance within the IRS
       Research Community. This consistent information will be critical for the IRS to ensure
       program resources are addressing the most important tax administration issues.
Recommendation 3: Develop guidance to ensure that basic project information is captured,
tracked, and monitored and allows for consistent and comparable reporting of IRS research
efforts. This guidance should also include a requirement for management to clearly distinguish
research projects from research activities on their databases.
       Management’s Response: IRS management agreed in principle with this
       recommendation. Tracking systems currently exist in some research units. Additionally,
       some of these tracking systems are being redesigned and will distinguish, where
       appropriate, between research “projects” and “activities,” capture project documentation
       and time and resource expenditures, and monitor research projects. Results of ongoing
       work will be shared with the entire Servicewide Research Council.
       Office of Audit Comment: We are concerned that the responsibility for implementing
       this recommendation has been given to the Servicewide Research Council when this
       Council serves as a forum for exchanging ideas and coordinating crosscutting activities,
       not as a standards-making body. The Internal Revenue Manual states the Office of RAS
       is responsible for providing “functional leadership, guidance, and support to the IRS
       Research Community on research standards and practices to ensure consistency and
       comparability” of performance between research programs. The standards, practices, and
       guidance referred to in this recommendation will provide IRS management with research

                                                                                           Page 10
           An Improved Project Management Process Is Needed to
         Measure the Impact of Research Efforts on Tax Administration



information that is common to all projects, including non-research projects, for
comparable and consistent reporting and evaluation of performance within the IRS
Research Community. This consistent information will be critical for the IRS to ensure
program resources are addressing the most important tax administration issues.




                                                                                Page 11
                        An Improved Project Management Process Is Needed to
                      Measure the Impact of Research Efforts on Tax Administration



                                                                                        Appendix I

            Detailed Objective, Scope, and Methodology
The overall objective of this review was to determine whether the structure and management of
IRS research efforts1 can be improved when providing information to IRS executive
management. To accomplish our objective, we:
I.         Determined how IRS research activities are structured and coordinated in the Office of
           RAS and how the research programs are structured in the IRS business divisions.
           A. Identified the decentralized structure of the IRS Research Community in the Office of
              RAS and the embedded research programs in the business divisions.
           B. Determined whether the structure of the Servicewide Research Council allows it to
              serve as a forum for sharing information, coordinating actions, and resolving
              procedural issues that impact the execution of research crosscutting across the IRS.
           C. Evaluated how resources were committed to perform research in the Office of RAS
              and the research programs in the business divisions, including Full-Time Equivalents,
              employees involved in cross-functional research efforts, and funding.
           D. Interviewed executives in the Office of RAS, the research programs in the business
              divisions, the IRS Oversight Board, and the Servicewide Research Council.
II.        Determined whether the IRS Research Community is effectively managed when
           performing research.
           A. Reviewed a judgmental sample of 30 projects from the 907 research projects2 in the
              IRS Research Community’s Fiscal Year ending 2008 databases of completed or in
              process research projects in the Office of RAS and business divisions and obtained
              project file documents that support decisions made during the project.
           B. Evaluated the management of research projects by the Office of RAS and research
              programs in the business divisions.
           C. Determined whether the Servicewide Research Council provides an effective forum
              to coordinate crosscutting actions and resolve procedural issues that affect research
              across the business divisions.




1
    See Appendix VI for a glossary of terms.
2
    We selected a judgmental sample because we were not going to project our results.
                                                                                             Page 12
                      An Improved Project Management Process Is Needed to
                    Measure the Impact of Research Efforts on Tax Administration



Internal Controls Methodology
Internal controls relate to management’s plans, methods, and procedures used to meet its
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the Government Performance and Results
Act of 1993,3 the Standards for Internal Control in the Federal Government,4 the President’s
Management Agenda, and Parts 1.1.18 and 1.7.4 of the Internal Revenue Manual. These controls
were reviewed through interviews with the Directors in the Office of RAS and research programs
in the IRS business divisions and reviews of research projects, budget documents, mission
statements, and charter documents.




3
  Pub. L. No. 103-62, 107 Stat. 285 (codified as amended in scattered sections of 5 U.S.C., 31 U.S.C., and
 39 U.S.C.).
4
  GAO/AMID-00-21.3.1, dated November 1999.
                                                                                                             Page 13
                 An Improved Project Management Process Is Needed to
               Measure the Impact of Research Efforts on Tax Administration



                                                                           Appendix II

                Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
Organizations)
Jeffrey M. Jones, Director
Diana M. Tengesdal, Acting Director
Joseph F. Cooney, Audit Manager
John W. Baxter, Lead Auditor
Lauren W. Bourg, Auditor
Angela Garner, Auditor




                                                                                  Page 14
                  An Improved Project Management Process Is Needed to
                Measure the Impact of Research Efforts on Tax Administration



                                                                             Appendix III

                          Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Commissioner, Large and Mid-Size Business Division SE:LM
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Tax Exempt and Government Entities Division SE:T
Commissioner, Wage and Investment Division SE:W
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Director, Communications and Liaison, Office of Research, Analysis, and
Statistics RAS




                                                                                     Page 15
                   An Improved Project Management Process Is Needed to
                 Measure the Impact of Research Efforts on Tax Administration



                                                                                 Appendix IV

                                Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•   Reliability of Information – Actual; 16 research activities which were inaccurately reported
    as research projects (see page 7).

Methodology Used to Measure the Reported Benefit:
To determine whether the IRS reliably reported the number of research projects completed in
Fiscal Year 2008, we reviewed case information for 30 selected projects and determined
differences in the type of work considered as a “research project” by the various IRS research
programs. Specifically, we determined that 16 (53 percent) of the 30 IRS research projects were
“research activities” and not “research projects.” All 16 activities were either closed in a short
time period (e.g., 3 projects collectively required 4 days to complete) or required few resources
to complete.




                                                                                          Page 16
                  An Improved Project Management Process Is Needed to
                Measure the Impact of Research Efforts on Tax Administration



                                                                               Appendix V

     Description of the Office of Research, Analysis,
               and Statistics Sub-Offices

1. Office of Research – Improves tax administration by providing information, analysis, and
   solutions from an agency-wide perspective and by advocating actions for decision makers by
   providing data; developing tools, techniques, methodologies, analysis, and models used to
   support organizational decisions; and developing strategies to achieve the IRS mission,
   vision, and goals.
2. National Research Program – Measures voluntary compliance including filing, payment,
   and reporting compliance to improve the IRS’ ability to detect noncompliance and develop
   appropriate cost-effective treatments for prevention and early intervention.
3. Office of Program Evaluation and Risk Analysis – Conducts short-term research projects
   to provide senior IRS management with accurate and timely analysis of ongoing and
   proposed IRS programs and investments to support quality, data-driven strategic thinking and
   decision making across the organization.
4. Statistics of Income Division – Collects, analyzes, and disseminates information on Federal
   taxation for the Department of the Treasury Office of Tax Analysis, Congressional
   Committees, IRS business units in their administration of the tax laws, other organizations
   engaged in economic and financial analysis, and the general public.
5. Office of Servicewide Policy Directives and Electronic Research – Designs and delivers
   core research tools and services that advance the customer service, compliance, and
   enforcement priorities of the IRS.




                                                                                       Page 17
               An Improved Project Management Process Is Needed to
             Measure the Impact of Research Efforts on Tax Administration



                                                                       Appendix VI

                        Glossary of Terms

Term                             Definition
Basic Project Information        Includes information common to all projects,
                                 regardless of whether the project is related to
                                 research. This includes project numbers;
                                 objectives of the research projects; customers
                                 and requestors of the research; and start,
                                 milestone, and completion dates.
Full-Time Equivalent             A measure of labor hours in which 1 Full-Time
                                 Equivalent is equal to 8 hours multiplied by the
                                 number of compensable days in a particular
                                 fiscal year.
Milestones                       Milestones provide for “go/no-go” decision
                                 points in a project and are sometimes associated
                                 with funding approval to proceed.
Research Activity                A task that usually is short in duration or
                                 requires little time to complete and does not
                                 require the detailed planning and management of
                                 resources. Research activities can be part of a
                                 research project or separate tasks not related to a
                                 research project such as obtaining information or
                                 providing support services.
Research Efforts                 The combined resources used to perform
                                 research projects and research activities,
                                 including activities specifically designed to
                                 support research.




                                                                                Page 18
            An Improved Project Management Process Is Needed to
          Measure the Impact of Research Efforts on Tax Administration




Term                          Definition
Research Project              A process which is initiated by a person (or
                              group) who realizes that a specific problem
                              needs resolution; involves the development of
                              well-defined goals and plans to determine
                              project completion; and requires the
                              organization, monitoring, and management of
                              resources during project execution to deliver the
                              project within scope, costs, and time constraints.
                              Defining what a research project is helps in
                              understanding the project management
                              methodology and its effectiveness for project
                              management.




                                                                             Page 19
      An Improved Project Management Process Is Needed to
    Measure the Impact of Research Efforts on Tax Administration



                                                    Appendix VII

Management’s Response to the Draft Report




                                                           Page 20
  An Improved Project Management Process Is Needed to
Measure the Impact of Research Efforts on Tax Administration




                                                       Page 21
  An Improved Project Management Process Is Needed to
Measure the Impact of Research Efforts on Tax Administration




                                                       Page 22
